Ti

seme (CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831
Fax: (402) 342-4850

www.cocklelegalbriefs.com
No. 19-276

JOSE LUIS GARZA, individually and as Representative of
the Estate of Jose Luis Garza, Jr., Deceased; VERONICA
GARZA, individually and as Representative of the Estate

of Jose Luis Garza, Jr., Deceased; CYNTHIA LOPEZ
as Next Friend of J.R.G., Minor Son,
Petitioners,
v.
CITY OF DONNA,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook

12 point for the text and 10 point for the footnotes, and this brief contains 1424 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 Ith day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary

‘
Beet A Cale Outer b hh
My Commission Expires Nov 24, 2020 <

Notary Public

 

Affiant 39001
